                              U.S. DEPARTMENT OF ENERGY
                             OFFICE OF INSPECTOR GENERAL




                   AUDIT OF THE INTERNAL CONTROL STRUCTURE

                           OF THE DEPARTMENT OF ENERGY'S

                                 WORKING CAPITAL FUND


 The Office of Inspector General wants to make the distribution of its reports as customer friendly
  and cost effective as possible. Therefore, this report will be available electronically through the
                           Internet at the following alternative addresses:


                      Department of Energy Headquarters Gopher
                                 gopher.hr.doe.gov

                 Department of Energy Headquarters Anonymous FTP
                               vm1.hqadmin.doe.gov

        Department of Energy Human Resources and Administration Home Page
                             http://www.hr.doe.gov/ig


    Your comments would be appreciated and can be provided on the Customer Response Form
                                   attached to the report.


                                This report can be obtained from the
                                    U.S. Department of Energy
                           Office of Scientific and Technical Information
                                            P.O. Box 62
                                   Oak Ridge, Tennessee 37831



Report Number: CR-B-98-01                                  Capital Regional Audit Office
Date of Issue: October 8, 1997                             Germantown, Maryland 20874
                  AUDIT OF THE INTERNAL CONTROL STRUCTURE
                       OF THE DEPARTMENT OF ENERGY'S
                            WORKING CAPITAL FUND


                                        TABLE OF CONTENTS




                                                                                                   Page

            SUMMARY ........................................................................ 1

PART I -    APPROACH AND OVERVIEW ........................................ 2

            Introduction ....................................................................... 2

            Scope and Methodology ...................................................... 2

            Background            ................................................................... 3

            Observations and Conclusions.............................................. 4

PART II -   RESULTS OF AUDIT ....................................................... 6

            1. Comparison of Actual Costs and
               Obligations to Billing Estimates .................................... 6

            2. Formal Policies and Operating Procedures .................... 8

            3. Contract Audits Pricing Policy ..................................... 10

            4. Full Cost Identification ................................................. 11
                           U.S. DEPARTMENT OF ENERGY
                          OFFICE OF INSPECTOR GENERAL
                            OFFICE OF AUDIT SERVICES

                AUDIT OF THE INTERNAL CONTROL STRUCTURE
                     OF THE DEPARTMENT OF ENERGY'S
                          WORKING CAPITAL FUND


Audit Report Number:        CR-B-98-01

                                        SUMMARY


     The Subcommittee on Energy and Water Development of the Committee on
Appropriations, in its report dated July 16, 1996, approved the implementation of a
Working Capital Fund (Fund) at the U.S. Department of Energy. The Subcommittee also
directed the Office of Inspector General to conduct periodic audits of the Fund. This
audit was conducted to determine if the Department established an effective system of
controls over the Fund. Our specific objectives were to determine if internal controls were
sufficient to ensure that appropriate costs were allocated in a reasonable and unbiased
manner and in a way that was consistent with the expectations established by the
Congress.

     The Department completed a significant amount of work in a relatively short period
of time to implement the Working Capital Fund. Additionally, the Fund may already be
realizing benefits by making administrative costs more visible to program offices.
However, Fund management needs to strengthen controls in the following areas. First,
policies and procedures should be implemented to periodically compare actual costs to
estimates used as a basis for customer billings. The Fund also needs to establish formal
policies and operating procedures addressing funding excesses and shortages, and
management roles, responsibilities, and authorities. Additionally, the contract audits
pricing policy needs a simpler cost allocation process that facilitates the verification of
customer billings. Finally, the Department needs information on the full cost of Fund
services in order to make management decisions.

    Management generally concurred with the findings and recommendations and is
planning corrective actions.



                                                            _________/s/___________
                                                            Office of Inspector General
                                          PART I

                             APPROACH AND OVERVIEW


INTRODUCTION

     The Subcommittee on Energy and Water Development of the Committee on
Appropriations, in its report dated July 16, 1996, approved the implementation of a
Working Capital Fund (Fund) at the U.S. Department of Energy. The Subcommittee also
directed the Office of Inspector General to conduct periodic audits of the Fund. This
audit was conducted to determine if the Department established an effective system of
controls over the Fund. Our specific objectives were to determine if internal controls were
sufficient to ensure that appropriate costs were allocated in a reasonable and unbiased
manner and in a way that was consistent with the expectations established by the
Congress.

SCOPE AND METHODOLOGY

     We conducted fieldwork from March through June 1997 at Department of Energy
Headquarters' offices in Washington, DC and Germantown, MD. Fieldwork consisted of
meetings with officials in the Office of Human Resources and Administration and the
Office of Chief Financial Officer as well as with officials from the various Departmental
program offices. We discussed cost allocation and pricing policies, funds control
procedures, business line activities, and relevant operational guidelines with officials
responsible for managing Fund activities and separate business lines. Fieldwork also
included meetings with the program offices to determine how they controlled funds and
managed costs and to discuss positive and negative aspects of the operation of the Fund.
Finally, based on an analysis of costs and business line complexity, we selected three
business lines and performed a detailed analysis of Fiscal Year 1997 obligations, costs,
and customer billings.

     The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objectives. Our
assessment of the significant internal controls consisted of reviews of pricing and financial
related policies and general operating policies and procedures as well as tests of billing
controls. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. Although
computer-processed data were not significant to the findings, we included tests to trace
data from the Fund's billing system to supporting documentation and found no
discrepancies.




                                              2
BACKGROUND

     The Department established the Fund in January 1996 as a financial management tool
for charging the costs of common services provided in the Headquarters' area back to
Departmental program offices using those services. Prior to the Fund, the Office of
Human Resources and Administration paid for the cost of these services from the
Departmental Administration account without attempting to allocate the costs back to the
programs using the services. Currently, Departmental program offices make annual,
quarterly, and monthly payments into the Fund from their program direction accounts and
these offices are charged for the services they consume. The Department's objectives, in
establishing the Fund, were to allocate the full costs of the services to the program offices,
improve efficiency and reduce costs, and create a market-like framework for obtaining the
services. In Fiscal Year 1997, the cost of all services administered by the Fund was
expected to total about $93 million.

     The Department divided responsibilities for managing Fund activities between the
Working Capital Fund Board, the Fund Manager, Departmental program offices or
"customers," and business line managers. The Board established policies and designated
activities to be included in the Fund and working groups to deal with technical issues
related to policy decisions. The Fund Manager and staff provided advice to the Board,
reviewed proposed policies and procedures for compliance with Departmental guidelines,
directed formulation and monitored execution of Fund budgets, and provided explanations
of Fund activities. Program customers were expected to participate in the budget
formulation process and control the level of the services they used. Business line
managers were expected to monitor and control the costs of services provided under their
business lines.

     In Fiscal Year 1997, the Fund consisted of 3 different areas and 10 business lines.
The "Administrative Services" area included five business lines: Building Occupancy,
Printing and Graphics, Copying, Postage, and Supplies. The "Information Management"
area included the Telephones, Networking, and Desktop Support Business Lines. The
"Procurement" area included the Contract Audits and Contract Closeout Business Lines.
Our review included one business line from each area--Building Occupancy, Telephones,
and Contract Audits. These three business lines comprised about 79 percent of the total
anticipated cost of the Fund.

     In granting approval for the Department to implement the Fund, the Congress set
certain requirements. The Subcommittee on Energy and Water Development Report
indicated that the Congress looked for the Department to establish management processes
and policies to ensure that advance payments are minimized, the Fund is not used to
maintain unencumbered funds, and pricing and allocations to customers are sound and
defensible. The Congress also directed that Federal salaries and employee related
expenses not be charged to the Fund and favored broad-based customer representation on
the Board.




                                              3
OBSERVATIONS AND CONCLUSIONS

     Between January and October 1996, the Department completed a significant amount
of work to implement the Fund. This effort included establishing the Board; drafting its
charter; providing an overview of the Fund to the Office of Management and Budget and
the Congress; establishing working groups to develop pricing policy options for each
business line; and holding numerous Board meetings to finalize pricing policies. In
addition, meetings with officials from other agencies were held to gain an understanding of
how other working capital funds were operated.

     During Fiscal Year 1997, the first year of operation, the Department reported that
costs for the Fund were expected to total about $3 million less than the original
$93 million estimate. This anticipated reduction may be attributed to the fact that costs
are more visible under the Fund concept and some customers are better managing their
use of Fund services. Additionally, efforts by business line officials may be contributing to
cost reductions. For example, Telephone Business Line officials initiated action to obtain
approval for a fixed-rate structure from a local telephone company. The new structure,
which is currently being reviewed by the Federal Communications Commission, could
produce notable savings. In addition, Fund management and business line officials used a
self-assessment process to evaluate their efficiencies and progress in meeting goals and
customers' needs.

     Notwithstanding these accomplishments, and as noted in Part II of this report, certain
policies and procedures needed to be strengthened to ensure that the Fund appropriately
allocates costs and meets congressional expectations. Specifically, the following
conditions require management attention:

   ◊   Actual costs and obligations for the three business lines reviewed were lower than
       amounts billed customers. These differences and data inaccuracies and
       miscalculations resulted in the Fund collecting more than was necessary.

   ◊   The Department had not prepared formal operating procedures defining roles and
       responsibilities for managing costs and budget estimates and had not adequately
       addressed the disposition of fund excesses and shortages. As a result, program
       offices were not fully aware of their responsibilities for controlling costs and funds.

   ◊   The pricing policy for the Contract Audits Business Line was exceedingly complex
       and subjective. As a result, it was unclear whether billings were reasonable or
       customers were treated equitably.

   ◊   The Department had not collected information on the full cost of Fund services.
       As a result, the Department could not determine the economic viability of the
       provided services.




                                              4
    Our limited review did not disclose any material internal control deficiencies.
However, we made recommendations to improve controls in each of the above areas as
documented in the remainder of this report. Management generally concurred and is
planning corrective action.




                                          5
                                         PART II

                                  RESULTS OF AUDIT


    Controls could be strengthened in four areas. The first finding, Comparison of Actual
Costs and Obligations to Billing Estimates, deals with policies and procedures that should
be implemented to provide customers with information on the amount of excess payments
made or shortages sustained during the fiscal year. The next finding, Formal Policies and
Operating Procedures, deals with steps that can strengthen written policies and procedures
addressing management roles, responsibilities, and authorities. The third finding,
Contract Audits Pricing Policy, discusses the need to improve the basis for allocating
contract audit costs among program offices. Finally, Full Cost Identification addresses the
need for the Department to consider the full cost of Fund services in management
decisions.


    Finding 1: Comparison of Actual Costs and Obligations to Billing Estimates

     The Subcommittee on Energy and Water Development Report stated that advance
payments should be minimal, sufficient to cover outstanding commitments and other
reasonable activities and that pricing policies should be sound. Advances to the Fund
were made at the beginning of the fiscal year from customers' appropriations and were
based on estimates made in the preceding year. As the year progressed, the Department
billed customers amounts that, under some pricing policies, were based on these original
estimates as opposed to actual costs. These billings reduced the amount of customer
advances outstanding. An examination of three business lines disclosed that actual costs
and obligations were lower than the amounts billed customers. These differences plus
additional data inaccuracies and miscalculations resulted in the Fund collecting more than
was necessary. For example:

    ◊   Under the Contract Audits Business Line, customers were charged the full
        amount expected to be incurred during Fiscal Year 1997 for outside audit service
        costs, or approximately $9.8 million. A review of actual costs incurred through
        May 1997 indicated that costs for the year would total about $800,000 less than
        the amount originally estimated. In commenting on an earlier version of this
        finding, Fund management stated that the Board agreed to offer credits to all
        customers under the Contract Audits Business Line that will reduce the total net
        charges to approximately $9.1 million.

    ◊   Under the Telephones Business Line, charges included usage costs for services
        such as long distance calls and infrastructure charges for such things as telephone
        lines and circuits. An interim review of the business line indicated that
        infrastructure costs and obligations for Fiscal Year 1997 would total about
        $360,000 less than the $5,030,000 originally estimated. Additionally, because of


                                             6
        miscalculations, customers were billed more than the amount originally estimated.
        Each month, the Department allocated the original estimate to customers based on
        counts of telephone lines that, in April 1997, equated to about $30 per telephone
        line. However, miscalculations of telephone line "inventories" resulted in
        customer charges of $33 per line. These miscalculations inflated customer
        charges since the beginning of the fiscal year.

        Fund management agreed that a methodological error was made in computing
        telephone line rates. The Information Management Operations Group plans to re-
        compute all telephone and networking bills from the beginning of the fiscal year
        for both infrastructure and usage and adjust customer bills as necessary. On the
        other hand, management believes its original $5,030,000 estimate of Fiscal Year
        1997 telephone infrastructure costs should continue to be used as the basis for
        Fiscal Year 1997 pricing. Rather than try to adjust customer charges in response
        to cost and obligation differences during the year, management's recommended
        approach is to review costs at the beginning and end of the fiscal year and make
        adjustments at that point.

    ◊   Under the Building Occupancy Business Line, customers were charged quarterly
        an amount expected to cover General Services Administration rent costs plus
        obligations for operating and maintenance service contracts. A review of cost and
        obligation data as of April 1997 from an internal financial management system
        indicated that costs and obligations for the year would total about $750,000 less
        than the amount originally estimated. Additionally, purchase order and invoice
        documentation indicated that the obligation data in the financial management
        system may be overstated. We reviewed a random sample of 29 obligations and
        found that the sample was overstated by about 13 percent. Projecting this
        overstatement to the population of obligations could lead to an even larger
        difference between amounts charged to customers and the sum of actual rental
        costs plus obligations.

     Despite these indications of excessive payments, the Department did not adopt
procedures to calculate the potential overages or adjust customer billings. These
procedures are important in light of recent developments affecting the Fund. In April
1997, the Department reported that delays in vacating office space would cause the
original Building Occupancy estimate to be short by about $725,000. The Department
proposed increasing all customer charges to cover the expected shortage. By calculating
potential overages in each business line and adjusting customer billings, the Department
may be able to lessen the burden on customers attempting to cover potential shortfalls.

     Fund management stated that the rent adjustments adopted by the Board were
prudent and indicated that it had performed an up-to-date analysis that included a revised
projection of anticipated rent costs and contractual obligations, as well as contingency
reserves for unplanned expenses. The Department also stated that the summer season
frequently involves mechanical failures and high utility bills. Management believed that


                                             7
operating with a 5-percent contingency in the operating and maintenance service accounts
(estimated to total about $15 million) to pay for such unexpected events appeared
reasonable and concluded that the projected $750,000 excess was acceptable. The
Department did agree that an obligation recorded in its internal management system was
overstated and stated that it had reconciled the data in the system to the actual contract
document.

Recommendation:

     The Board should adopt a policy to have each business line manager periodically
compare actual costs and contractual obligations to the estimates used as the basis for
customer billings. This review should include steps to ensure the accuracy of the data, and
the results should be presented to the Board so that it can determine whether differences
should be reflected in subsequent customer billings.

     Management Comments. The Chairman concurred with the recommendation, subject
to the need to avoid significant costs for new information systems. The Board will review
informal management systems used by business line managers to ascertain whether and
how it can improve the timeliness and reliability of these systems' forecasts of costs
without a major expenditure of funds. The Chairman also identified the following actions
to address our recommendations.

    •   The Board agreed to permit the Fund Manager to reduce prices when it appeared
        that costs were underrunning original estimates. However, pricing policy changes
        to increase prices, to accommodate projected cost increases, would continue to
        require Board action.

    •   Fund Management will draft a procedure to continue quarterly reviews initiated
        during Fiscal Year 1997 including the definition of the types of financial
        information the Board would receive.

    Auditor Comments. Management actions are responsive to our recommendation.


                Finding 2: Formal Policies and Operating Procedures

     The Fund represented a new way of managing administrative services for the
Department. Thus, as indicated above, it was important that policies and procedures be
established to facilitate this change and ensure that the Fund operated in an efficient
manner. In addition, the Congress stipulated that a policy on excess advances was
necessary and that the Fund should not be managed in a way that would produce a profit
or allow unencumbered funds to be maintained. Policies and procedures were necessary
to ensure that these expectations were met. However, the Department lacked formal
operating procedures for managing the Fund and policies to adequately address the
disposition of excesses and shortages of funds.


                                            8
     The Department did not have formal operating procedures defining roles and
responsibilities for managing costs and budget estimates. Discussions with affected
program offices showed that many were not fully aware of their new role as Fund
customers. For example, some program offices believed it was Fund management's
responsibility to control costs and prevent them from overobligating funds. Additionally,
some program officials relied on Fund management to provide budget estimates and did
not participate in the budget formulation process by providing feedback on the types and
levels of services they expected to consume during the year.

     Additionally, the Board had not adequately addressed the disposition of excesses and
shortages of funds. As indicated above, the Fund billed customers based on cost
estimates. These estimates could lead to a customer paying too much under one business
line and too little under another. Since the original customer appropriation did not restrict
funding to each business line, customers can adjust funding between business lines to
cover projected shortages. In addition, the Department analyzed its uncosted balances on
prior year contracts related to Fund activities and planned to transfer a portion of these
balances into the Fund in excess of customer payments. However, there was no written
policy to address the use of the uncosted balances transferred into the Fund or an
acceptable level of carryover to the next fiscal year. Similarly, there was no written policy
on the disposition of excess funds or shortages or the use of business line excess funding
to cover other business line shortages.

Recommendation:

    The Fund Manager should:

    1. In cooperation with the Office of Chief Financial Officer, write formal operating
       procedures defining the relative roles, responsibilities, and authorities of Fund
       managers and program customers in controlling costs, preventing obligations that
       exceed authorized amounts, and reviewing budget estimates for accuracy and
       reasonableness.

    2. Establish a policy to address the disposition of excess funds and shortages, the use
       of business line excess funding to cover other business line shortages, the use of
       uncosted balances transferred into the Fund, and an acceptable level of carryover
       to the next fiscal year that is consistent with the expectations of the Subcommittee
       on Energy and Water Development.

     Management Comments. The Chairman concurred with the finding and identified the
following corrective actions in response to our recommendations. The Chairman stated
that Fund management is committed to the improvement and issuance of formal
documentation of the Fund's policies and procedures. He noted that the Board recently
adopted formal policies for the administrative control of funds and for the accounting for
assets and liabilities. Formal policies on pricing procedures and accounting are being



                                              9
prepared by the Office of Chief Financial Officer. The Fund Manager has developed a
plan for issuance of a consolidated manual containing relevant Fund documentation in
conjunction with a Office of Chief Financial Officer initiative to teach program officials
methods for administering program direction budgets.

    Auditor Comments. Management's actions are responsive to our recommendations.


                       Finding 3: Contract Audits Pricing Policy

     The Subcommittee on Energy and Water Development Report stated that pricing
policies should be sound and defensible. We view this to mean that they be fair with a
reasonable basis for the allocation. However, the allocation basis for the Contract Audits
Business Line was exceedingly complex and subjective. As a consequence, it was unclear
whether customer billings were fair and reasonable.

     The contract audits pricing policy used prior years' audit billings to estimate current
year costs. For the most part, these bills charged for audit services at a given field
location but were not tied to the various program offices at the location. Thus, allocating
these audit costs and billing program customers often required a subjective analysis. In
addition, the official involved in the allocation process stated it was resource intensive,
requiring a review of several hundred contracts and the preparation of extensive
spreadsheets. In Fiscal Year 1997, this process required a review of over 1,500 contracts.
We also noted that the Department's basis for allocating these costs among customers was
not adequately documented. Accordingly, we were not able to validate the propriety of
customer billings.

     Despite this lengthy process, the resulting allocation of audit costs did not satisfy the
Fund's customers. Many customers felt that their bills were unclear and were frustrated in
their attempts to relate the amounts billed to current year activity. Others felt that the
allocations were not equitable and the business line should be removed from the Fund.

Recommendation:

     The Board should consider a simpler allocation process for billing contract audit
services that facilitates the verification of customer billings.

    Auditor's Note: After the end of our audit fieldwork, we received the report of the
Energy and Water Development Subcommittee, which stated that contract audit costs
should not be included in the Fund for Fiscal Year 1998. Instead, these costs should be
charged directly to program budgets. Although removing the business line from the Fund
would remove the issue as it relates to the Fund, it would not eliminate the need for a
simpler allocation process.




                                              10
     Management Comments. The Chairman concurred with the finding. The Board, at
its August 12, 1997, meeting, voted to remove the Contract Audit Business Line from the
Fund for Fiscal Year 1998. The Chairman also stated that the Human Resources and
Administration and the Office of Chief Financial Officer are working together to
implement a simplified process for financing these audits in Fiscal Year 1998.

    Auditor Comments. Management's actions are responsive to our recommendations.


                           Finding 4: Full Cost Identification

     Statement of Federal Financial Accounting Standards Number 4, "Managerial Cost
Accounting Concepts and Standards for the Federal Government," encourages Federal
entities to use full cost information in making economic decisions on whether to continue
providing a product or service. In the case of the Working Capital Fund, Congress
specifically prohibited the Department from charging the costs of Federal salaries and
related expenses of employees to the Fund. However, the Department still incurred these
costs, and the expenses affected the total cost of providing services. These costs included
the costs of Office of Human Resources and Administration staff assigned to manage and
operate the Fund and its business lines as well as the costs of facilities, telecommunications,
ADP support, and other indirect costs associated with these employees. In addition,
program customers assigned personnel to manage the services obtained through the Fund,
attend Board meetings, and participate in working groups. Without a mechanism to
identify the unreimbursed costs, the Board had no baseline to identify the most efficient
practices, nor could it make informed decisions on whether services provided by the Fund
were competitive with the private sector.

Recommendation:

    Fund management should identify all direct and indirect costs associated with the
operation and administration of the Fund and provide the Board with information on these
costs.

     Management Comments. The Chairman, citing congressional opposition to including
Federal salaries and related expenses in the Fund and the Board's priority on reducing the
costs of Fund activities, stated that the Fund is reluctant to undertake cost accounting
activities not connected to Fund pricing policies if such activity either diverted attention
away from efficiency improvements or required significant expenditure of funds.
However, he also stated that, based on Board discussion, the Fund plans to continue to
collect, analyze, and periodically display information on the major cost elements (primarily
direct Federal salaries and space) not now included in the pricing structures. The Board
will be advised at least once annually of the implications of such costs for the viability of
the various business lines. The Chairman noted, however, that no decisionmaking purpose
would be served by collecting detailed information on such indirect costs as attendance at
Board and Working Group meetings. It is possible that some very general estimates could



                                             11
be developed on further indirect costs, and over the coming year, the Fund will collect
information about the practices of Working Capital Fund managers in other Federal
agencies on this matter. At this point, the Board is not willing to commit to specific
actions to include further cost information.

     Auditor Comments. Although the Congress stipulated that no salaries or other
expenses of Federal employees could be charged to the Fund, this information is important
in determining the viability of Fund activities. If, in the future, the Congress allows full
costs to be charged to the Fund, it could lead to increased business line prices that are not
competitive with suppliers outside the Department. Therefore, if full cost information
shows that Fund activities are not viable, this information should be known to the
Department as soon as possible. In making our recommendation to identify all direct and
indirect costs of the Fund, we do not envision an elaborate cost system. For example, the
Board could develop an informal process to estimate the extent to which all costs affect
each business line. The basis for such estimates should be adequately documented.

     Accordingly, we believe that management's planned actions to "collect, analyze, and
periodically display information on major cost elements...not now included in the pricing
structures" is responsive to our recommendation. Furthermore, as suggested by the
Chairman in his comments, general estimates of indirect costs can be developed. These
estimates can be used to fully assess the viability of Fund activities.




                                             12
                                                               Report No. CR-B-98-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore ask that you consider sharing your thoughts with us.
On the back of this form, you may suggest improvements to enhance the effectiveness
of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in this report to assist management in implementing corrective
   actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should
we have any questions about your comments.

Name ___________________________              Date_____________________________

Telephone _______________________            Organization_______________________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                                Office of Inspector General (IG-1)
                                      Department of Energy
                                     Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.




                                            13
